OFFICE OF AUDIT
REGION 10
SEATTLE, WA




  Gruening Park Apartments, Juneau, AK, Did
   Not Always Comply With HUD Rules and
                 Regulations




2012-SE-1006                   SEPTEMBER 5, 2012
                                                         U.S. DEPARTMENT OF
                                      HOUSING AND URBAN DEVELOPMENT
                                                  OFFICE OF INSPECTOR GENERAL




                                                                      Issue Date: September 5, 2012

                                                                      Audit Report Number: 2012-SE-1006


TO:            Renee D. Greenman, Director, Office of Housing – Multifamily Hub, 0AHM

               //signed//
FROM:          Ronald J. Hosking, Regional Inspector General for Audit, 0AGA

SUBJECT:       Gruening Park Apartments, Juneau, AK, Did Not Always Comply With HUD
               Rules and Regulations


       Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our audit of Gruening Park Apartments’ Section 236
and Section 8 programs in Juneau, AK.

        HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

        The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post
its publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

       If you have any questions or comments about this report, please do not hesitate to call me
at 913-551-5870.




                                                Office of Audit Region 10
                                    909 First Avenue, Suite 126, Seattle, WA 98104
                                      Phone (206) 220-5360, Fax (206) 220-5162
                           Visit the Office of Inspector General Website at www.hudoig.gov


                                                           
                                          September 5, 2012
                                          Gruening Park Apartments, Juneau, AK, Did Not Always
                                          Comply With HUD Rules and Regulations




Highlights
Audit Report 2012-SE-1006


 What We Audited and Why                   What We Found

We audited Gruening Park Apartments       The owner generally administered the project and its
(project), a 96-unit apartment complex    programs in compliance with the regulatory agreement
in Juneau, AK, owned and operated by      and other HUD requirements. However, it did not
Alaska Housing Development                comply with HUD rules and regulations regarding its
Corporation, Inc. (owner), to determine   waiting list, security deposit collections, rent
whether the owner administered the        calculations, mortgage insurance premium payments,
project and its programs in compliance    or management fee calculations. The owner made
with the regulatory agreement and other   changes to the project’s waiting list aimed at
HUD requirements. We selected this        addressing our concerns and reimbursed the project for
project primarily due to its having a     its overpaid management fees.
significantly deficient surplus cash
position of negative $294,058.

 What We Recommend

We recommend that HUD require the
owner to implement policies and
procedures to improve its waiting list
documentation, security deposit
collections, recertification review
process, and automatic withdrawals.
We also recommend that the owner
reimburse tenants for all overpayments,
reconcile the mortgage insurance
premium overpayment with the lender,
and accurately calculate its management
fee.




                                                 
                          TABLE OF CONTENTS


Background and Objective                                             3

Results of Audit
     Finding:   The Owner Did Not Always Comply With HUD Rules and   4
                Regulations

Scope and Methodology                                                8

Internal Controls                                                    9

Appendixes
A.   Schedule of Questioned Costs                                    11
B.   Auditee Comments                                                12
C.   Tenant Rent and HUD Assistance Calculation Errors               13
D.   Mortgage Insurance Premium Overpayments                         14




                                          2
                       BACKGROUND AND OBJECTIVE

Gruening Park Apartments

Gruening Park Apartments (project) is a 96-unit apartment complex in Juneau, AK. It is owned
and operated by Alaska Housing Development Corporation, Inc. (owner), a nonprofit
organization formed in 1972. The owner also owns the adjacent Eaglewood Apartments and
Ravenwood Apartments. The U.S. Department of Housing and Urban Development (HUD) pays
a portion of the project’s mortgage interest expense under the Section 236 program. The project
also has two Section 8 contracts that cover 56 units, and it converted one of the remaining units
into its Neighborhood Networks Center. HUD authorized the project to retain its excess income
to defray the Center’s expenses. During our 2-year audit scope, HUD provided the project more
than $1.1 million between the two programs.

Section 236 – Interest Subsidy Payments

The Section 236 program provides interest reduction payments to the lender on behalf of the
project. The interest reduction payments lower the project’s operating costs and, in turn, the
tenants’ rent by bringing the effective mortgage rate down to 1 percent. Interest reduction
payment amounts that exceed the interest due are retained by the project to cover other operating
costs. A tenant must pay 30 percent of his or her adjusted income but no less than the basic rent
established by HUD and no greater than the HUD-estimated fair market rent. Excess income is
the amount of rent received above the basic rent. Section 236 rules apply to the entire project
unless a more direct subsidy provides rental assistance, such as Section 8.

Section 8 – Housing Assistance Payments Program

The project-based Section 8 Housing Assistance Payments program provides rental assistance to
low-income individuals and families, enabling them to live in affordable, decent, safe, and sanitary
housing. HUD makes the assistance payment to the owner of an assisted unit on behalf of an
eligible family, defined as having income at or below 80 percent of the area median income adjusted
for family size. The tenant pays the higher of (1) 30 percent of his or her monthly adjusted income,
(2) 10 percent of his or her monthly income, (3) welfare rent (if applicable), and (4) $25 minimum
rent. The project calculates the amount of the assistance payment, which is the difference between
the contract rent and the tenant rent.

Our objective was to determine whether the owner administered the project and its programs in
compliance with the regulatory agreement and other HUD requirements.




                                                 3
                                RESULTS OF AUDIT


Finding: The Owner Did Not Always Comply With HUD Rules and
Regulations
The owner did not comply with HUD rules and regulations regarding its waiting list, security
deposit collections, rent calculations, mortgage insurance premium payments, or management
fee calculations. This noncompliance occurred because the owner lacked sufficient policies and
procedures. As a result, the owner did not admit tenants appropriately, did not promptly refund
security deposit overpayments, charged incorrect rent amounts, and overpaid its mortgage
insurance premium escrow account and management fee.


 The Waiting List Was
 Insufficient

              The owner did not maintain an auditable waiting list. HUD Handbook 4350.3
              states that owners must select applicants from the waiting list in chronological
              order. A notation must be made on the waiting list whenever an activity specific
              to an applicant occurs to provide an auditable record. Independent reviewers
              looking at the waiting list should be able to confirm that an applicant was
              appropriately housed. The owner, however, admitted some tenants ahead of
              others who applied before them, and the waiting list did not provide enough detail
              to justify these out-of-order selections.

 The Owner Overcollected
 Security Deposits

              The owner overcollected tenant security deposits. If a project elects to collect
              security deposits, HUD requires these deposits to equal, at most, 1 month’s rent
              for Section 236 tenants and 1 month’s total tenant payment for Section 8 tenants.
              Instead of reconciling deposits when paid, the owner reconciled the payments
              later and refunded any overpayments, sometimes as much as 2 years later.

 The Owner Made Rent
 Calculation Errors

              The owner made errors in calculating tenant rent. HUD Handbook 4350.3
              requires the owner to correctly calculate rent and includes instructions for this
              calculation, including how to determine tenant income and incorporate contract
              rents. Despite reviewing each recertification, the owner made 10 different
              calculation errors in 7 of the 13 files sampled. These errors are described in
              appendix C.
                                               4
The Owner Paid Excess
Mortgage Insurance Premiums

           The owner overpaid its mortgage insurance premiums. The regulatory agreement
           between HUD and the owner states that the owner may not pay out any funds
           except for reasonable operating expenses and necessary repairs. In addition,
           HUD created an amortization schedule that prescribed the amount the owner
           owed in principal, interest, and its mortgage insurance premium each month. The
           lender withdrew the funds from the project’s operating account and placed the
           premiums in an escrow account. While the annual payments from the escrow
           account to the insurance fund followed the amortization schedule, the withdrawals
           from the project did not. The lender charged and withdrew higher monthly
           amounts associated with prior years on the amortization schedule, resulting in the
           owner’s overpayment. These deviations from the schedule are shown in appendix
           D.

The Owner Incorrectly
Calculated Management Fees

           The owner based its management fee calculation on net rental income instead of
           rent receipts. HUD Handbook 4381.5 states that fees derived from project income
           must be calculated as a percentage of the income collected. The management
           certification shows that the owner agreed to manage the project for 6 percent of
           residential income collected. Instead of basing its calculation on rent receipts
           collected, the owner charged a management fee of 6 percent of net rental income
           earned.

           In addition, the owner included excess income in net rental income. When HUD
           authorized the owner to retain excess income to fund its Neighborhood Networks
           Center, it required the owner to book the excess income separately from net rental
           income. Both this authorization and HUD Handbook 4381.5 also instructed the
           owner to exclude excess income collected when calculating the management fee.
           The owner, however, considered net rental income to be the appropriate amount
           on which to base its management fee calculation and included $36,372 in excess
           income with net rental income. Since the owner based its management fee on net
           rental income, which was a different amount than income collected, it
           inappropriately included excess income in the calculation as well.




                                            5
Policies and Procedures Were
Insufficient

           The project’s policies and procedures were insufficient.

           The waiting list documentation procedure was insufficient. Rather than making
           the required notations on the waiting list, the owner relied on staff members to
           remember applicant-specific activities. As a result of the audit, the owner made
           changes to its waiting list procedure to include the required notations, but the
           effectiveness of this new documentation method had not been tested.

           The security deposit procedures did not prevent overcollection. The owner
           thought its reconciliation process was adequate and did not realize that periodic
           reimbursement of security deposits was not a satisfactory control.

           The recertification review procedure was insufficient to ensure proper rent
           calculations. The owner did not have written policies and procedures for
           conducting a recertification. The owner thought its review process was adequate
           and was surprised to learn that it had made the calculation errors described in
           appendix C.

           The owner also lacked procedures to ensure that mortgage payments followed the
           amortization schedule. The owner did not consider that the lender’s charges
           would deviate from the amortization schedule, so it did not have a process to
           review these withdrawals to ensure that payments from the project’s account were
           appropriate.

           The owner lacked procedures to properly calculate management fees. After the
           owner received authorization to retain excess income, it thought it was allowed to
           treat excess income as rental income.

Errors Resulted From a Lack of
Policies and Procedures

           Due to the lack of sufficient policies and procedures,

              Six of thirteen tenants reviewed were housed out of order without appropriate
               justification;
              The owner did not promptly refund $618 in overcollected security deposits,
               and some tenants went without hundreds of dollars for months, sometimes
               years;
              Three Section 8 tenants overpaid a total of $2,146 in rent;
              A Section 236 tenant overpaid a total of $204 in rent;
              Three Section 8 tenants underpaid a total of $1,558 in rent;
              A Section 236 tenant underpaid a total of $699 in rent;

                                            6
                      A Section 8 tenant did not receive $114 in utility reimbursement;
                      The owner unknowingly overpaid its mortgage insurance premium escrow
                       account by $2,171; and
                      The owner paid itself $2,304 in excess management fees. It repaid this
                       amount as a result of the audit.

    Recommendations

                 We recommend that the Director of Region X’s Office of Multifamily Housing

                 1A. Review the owner’s new waiting list procedure to ensure that it is auditable
                 and effective.

                 1B. Require the owner to implement a procedure to prevent tenants from
                 overpaying security deposits.

                 1C. Require the owner to improve its recertification review process to reduce
                 rent calculation errors.

                 1D. Require the owner to reimburse tenants from nonproject funds for the
                 $2,350 in overpayments and the $114 in unpaid utility reimbursement.

                 1E. Require the owner to reimburse HUD from nonproject funds for the $1,558
                 in overpaid housing assistance resulting from Section 8 tenant underpayments.

                 1F. Require the owner to reimburse the project from nonproject funds for the
                 $699 in Section 236 rent underpayments.

                 1G. Require the owner to review all files outside our sample for similar
                 calculation errors and reimburse tenants for any additional overpayments.

                 1H. Require the owner to reconcile the mortgage insurance premium
                 overpayment with the lender.

                 1I. Require the owner to institute policies and procedures for reviewing
                 automatic withdrawals.

                 1J.    Require the owner to repay the project $2,304 in excess management fees.1

                 1K. Train the owner in the correct method of calculating its management fee to
                 ensure that it is properly calculated in the future.



1
  The owner resolved this exception and reimbursed the project $2,304. These funds would have been classified as
ineligible had the issue not been resolved. Accordingly, we included that amount in appendix A, Schedule of
Questioned Costs
                                                        7
                          SCOPE AND METHODOLOGY

Our audit period covered January 2010 through December 2011. We performed our fieldwork
between April and June 2012 at the owner’s office located at 1800 Northwood Drive, Juneau, AK.

To accomplish our objective, we reviewed applicable agreements, contracts, and HUD
requirements; interviewed HUD and project staff; reviewed the project’s policies and procedures;
analyzed the project’s financial statements and general ledger; examined the project’s receipt and
disbursement activity; reviewed the project’s procurement of contracted services; analyzed the
project’s surplus cash, management fee, security deposits, and interest reduction payment revenue
amounts; examined the project’s reserve for replacement activity; and reviewed a sample of the
project’s tenant files.

Sample Selection

Of the project’s 95 residential units, we reviewed the files pertaining to the 13 tenants living in 8
randomly selected units during our audit period. This nonstatistical sample was drawn using a
random-number generator. This process yielded a mixture of Section 236 and Section 8 tenants,
as well as a collection of units occupied by varying numbers of families during our audit period.
The methodology for our review consisted of

   1. Reviewing the file and the waiting list to determine whether the tenant was properly
      selected from the waiting list;
   2. Reviewing the lease agreement to determine the tenant’s security deposit and comparing
      it to the tenant deposit ledger and deposit receipts;
   3. Completing a spreadsheet for each (re)certification using an Excel template that recreates
      the form HUD-50059 certification form;
   4. Reviewing the file to determine whether (re)certifications were completed in a timely
      manner, the tenant met eligibility requirements, and the project obtained verifications for
      income and assets;
   5. Reviewing the file to ensure that the owner calculated the correct housing assistance
      payment, utility assistance payment, and tenant rent as appropriate;
   6. Reviewing the lease agreement to ensure that the contract rent was appropriate; and
   7. Determining whether the owner properly admitted and recertified the tenant.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objective.




                                                  8
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  Controls to ensure proper selection from the waiting list.
                  Controls to ensure that tenant security deposits complied with HUD
                   requirements.
                  Controls to ensure that rents and management fees were properly calculated.
                  Controls to ensure that mortgage payments followed the amortization schedule.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                     The owner did not have adequate controls in place to ensure that tenants
                      were properly selected from the waiting list (finding 1).
                     The owner did not have adequate controls in place to ensure that tenant
                      security deposits complied with HUD requirements (finding 1).
                                                 9
   The owner did not have adequate controls in place to ensure that rents and
    management fees were properly calculated (finding 1).
   The owner did not have adequate controls in place to ensure that mortgage
    payments followed the amortization schedule (finding 1).




                             10
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS

                          Recommendation
                                                  Ineligible 1/
                              number
                                1D.                 $2,464
                                1E.                 $1,558
                                1F.                  $699
                                1J.                 $2,304


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            11
Appendix B

                              AUDITEE COMMENTS

 Alaska Housing Development Corporation                                  1800 Northwood Dr.
                                                                         Juneau, Ak. 99801
                                                                         (907) 780-6666
                                                                         (907) 780-4533 FAX
 August 13, 2012

 Ronald J. Hosking,
 Regional Inspector General for Audit
 U.S. Department of Housing and Urban Development
 Office of Inspector General
 Office of Audit (Region 10)
 909 First Avenue, Suite 126
 Seattle, WA 98104

 Dear Mr. Hosking:

 Please find below Alaska Housing Development Corporation’s (AHDC) written comments to
 the draft OIG report on Gruening Park Apartments, Juneau, Alaska. As requested these
 comments are being submitted in both hard and Word electronic copy.

 AHDC would like to thank the OIG staff for their time in reviewing our project. In general we
 agree with the findings outlined in the draft report. We also agree with the recommendations to
 implement additional policies and procedures to make improvements in several areas of our
 project management. These include our waiting list documentation, security deposit collection
 and reconciliation for applicable program requirements, internal recertification processing,
 reviewing automatic withdrawals by our Mortgagee for our annual mortgage insurance
 payment, and developing a procedure to make sure the management fee is accurately
 calculated.

 In closing, the Board of Directors and AHDC staff is committed to maintaining Gruening Park
 Apartments as a viable affordable housing resource in our community. Over the last 38 years of
 our relationship with the Department of Housing and Urban Development we have seen many
 changes in the rules and requirements for managing this property. We have always been willing
 to make changes and improvements in our management operations and thru this process we will
 continue to improve and strengthen our organization.

 If you have any questions, please contact Tamara Rowcroft, General Manager at
 (907) 780-4500.




                                               12
Appendix C

    TENANT RENT AND HUD ASSISTANCE CALCULATION
                      ERRORS

The owner committed one or more of the following rent calculation errors in 7 of the 13 files
reviewed:

      Omitted an eligible dependent deduction,
      Omitted a dependent’s permanent fund dividend income,
      Miscalculated when annualizing income by averaging the wrong number of weeks,
      Based its calculations on the Section 8 contract rent for the unit instead of the market
       rent,
      Based its calculations on an outdated rent schedule,
      Inaccurately added child support payments,
      Failed to conduct an interim recertification in a timely manner,
      Used the amount of child support charged by the State rather than that received by the
       tenant,
      Included wage income from a position no longer held by the tenant, and
      Omitted the eligible portion of native corporation income.

The errors above resulted in the following overpayments and underpayments:

          Family                       Rent         Rent         HAP       HAP
                       Program                                                       UR
            ID                          OP          UP           OP         UP
             2           Sec. 8        $144       ($1,272)      $1,272    ($144)
             8           Sec. 8         $9                                 ($9)
            10           Sec. 8                    ($270)        $270
            11           Sec. 8                     ($16)         $16
            12           Sec. 8       $1,993                              ($2,107)   $114
         Sec. 8 Subtotal              $2,146      ($1,558)      $1,558    ($2,260)   $114
             6        Sec. 236         $204
             7        Sec. 236                     ($699)
         Sec. 236 Subtotal             $204        ($699)
         Total                        $2,350      ($2,257)      $1,558    ($2,260)   $114
        Key:     ID – identification number
                 Rent OP – rent overpaid by tenant to project
                 Rent UP – rent underpaid by tenant to project
                 HAP OP – rental assistance overpaid by HUD to project
                 HAP UP – rental assistance underpaid by HUD to project
                 UR – utility reimbursement



                                                     13
Appendix D

  MORTGAGE INSURANCE PREMIUM OVERPAYMENTS


                  Scheduled   Withdrawn    Overpayment
         Month
                   amount       amount       amount
         Jan-10   $ 238.93     $ 353.07     $ 114.14
         Feb-10   $ 238.93     $ 353.07     $ 114.14
         Mar-10   $ 238.93     $ 353.07     $ 114.14
         Apr-10   $ 238.93     $ 353.07     $ 114.14
         May-10   $ 238.93     $ 353.07     $ 114.14
         Jun-10   $ 238.93     $ 238.93     $    0.00
         Jul-10   $ 238.93     $ 238.93     $    0.00
         Aug-10   $ 238.93     $ 238.93     $    0.00
         Sep-10   $ 238.93     $ 238.93     $    0.00
         Oct-10   $ 238.93     $ 238.93     $    0.00
         Nov-10   $ 238.91     $ 238.93     $    0.02
         Dec-10   $ 175.60     $ 298.00     $ 122.40
         Jan-11   $ 175.60     $ 298.00     $ 122.40
         Feb-11   $ 175.60     $ 298.00     $ 122.40
         Mar-11   $ 175.60     $ 298.00     $ 122.40
         Apr-11   $ 175.60     $ 298.00     $ 122.40
         May-11   $ 175.60     $ 298.00     $ 122.40
         Jun-11   $ 175.60     $ 298.00     $ 122.40
         Jul-11   $ 175.60     $ 298.00     $ 122.40
         Aug-11   $ 175.60     $ 298.00     $ 122.40
         Sep-11   $ 175.60     $ 298.00     $ 122.40
         Oct-11   $ 175.60     $ 298.00     $ 122.40
         Nov-11   $ 175.60     $ 298.00     $ 122.40
         Dec-11   $ 107.69     $ 238.94     $ 131.25
         Total    $4,843.10    $7,013.87    $2,170.77 




                              14
